No. 21-80
IN THE SUPREME COURT OF THE UNITED STATES
_________________
OUTDOOR AMUSEMENT BUSINESS ASSOCIATION, INC.,
ET AL., PETITIONERS
v.
DEPARTMENT OF HOMELAND SECURITY, ET AL.
_______________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENTS IN OPPOSITION via e-mail and first-class mail,
postage prepaid, this 29th day of September 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 4,415 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 29, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 29, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

21-0080
OUTDOOR AMUSEMENT BUSINESS
ASSOCIATION, INC., ET AL.
DEPARTMENT OF HOMELAND SECURITY, ET AL.

R. WAYNE PIERCE
THE PIERCE LAW FIRM, LLC
133 DEFENSE HWY.
SUITE 201
ANNAPOLIS, MD 21401
410-573-9955
WPIERCE@ADVENTURELAW.COM
LEON R. SEQUEIRA
616 SOUTH ADAMS STREET
ARLINGTON, VA 22204
202-255-9023
LSEQUEIRA@LRS-LAW.COM

